DOE/IG-0521




          AUDIT                   ADMINISTRATION OF SMALL
                               BUSINESS INNOVATION RESEARCH
         REPORT                       PHASE II GRANTS




                                            AUGUST 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                                       DEPARTMENT OF ENERGY
                                         Washington, DC 20585

                                                 August 31, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Administration of Small Business
                          Innovation Research Phase II Grants"

BACKGROUND

The Small Business Innovation Development Act of 1982 (P.L. 97-219) established the Small
Business Innovation Research (SBIR) Program to assist small businesses in developing new ideas
and technology. Under this Program, the Department of Energy sets aside 2.5 percent of its research
and development budget for grants to small businesses, using a phased approach. Phase II SBIR
grants, which were the focus of this audit, enable small businesses to evaluate commercial potential
of new ideas and technology, often culminating in a prototype product or process that can be
demonstrated to potential investors. Currently, the Department awards about $60 million annually in
Phase II grants. Under the procedures for Phase II grants, small businesses can be reimbursed only
for their actual costs incurred in accordance with the Federal Acquisition Regulation. Grant
applicants can, at their discretion, propose to contribute a share of total project cost and, when doing
so, receive extra credit in the grant evaluation process.

Historically, the Office of Inspector General has recognized grants administration as a significant
management challenge within the Department of Energy. Hence, the objective of the audit was to
determine whether the Department obtained assurance that costs claimed by SBIR Phase II grantees
were incurred in accordance with acquisition regulations and, where applicable, met cost sharing
requirements.

RESULTS OF AUDIT

We found that the Department had not appropriately verified that all costs claimed by SBIR Phase II
grantees were, in fact, allowable and were used for developing the specific innovations described in
the relevant grant documents. The Department generally limited its cost reviews to pre-award
evaluations of the costs proposed in the applications submitted by grantees; it did not, as we would
have expected, place sufficient emphasis on post-award reviews of actual costs. As a result, we
found that the Department reimbursed grantees for questionable costs --- for example, three grantees
did not provide any support for about $2.4 million in claimed costs. Further, the Department did not
verify that grantees fully contributed their portion of cost sharing, which were requirements of the
grant. We noted that ten SBIR Phase II grantees reported providing $2.4 million less in cost sharing
than required by the terms of the relevant grant agreements.
                                                 -2-



We support the objectives of the SBIR program, recognizing the fact that the use of the grant
instrument, including cost-sharing agreements, carries certain inherent vulnerabilities. We are
concerned, however, that the shortcomings identified in this audit relating to safeguards in the
administration of SBIR grants could ultimately undermine the viability of the program. The report
included several recommendations designed to address these issues.

MANAGEMENT REACTION

Management concurred with the finding and recommendations. We were informed that corrective
actions had been initiated.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
ADMINISTRATION OF SMALL BUSINESS INNOVATION
RESEARCH PHASE II GRANTS

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..........................................................1

                Conclusions and Observations.................................................. 2


                Phase II Costs and Cost Sharing

                Details of Finding.......................................................................3

                Recommendations and Comments ...........................................6


                Appendix

                Scope and Methodology.............................................................7
OVERVIEW

INTRODUCTION AND   The Small Business Innovation Development Act of 1982 (P.L. 97-219)
OBJECTIVE          established the Small Business Innovation Research (SBIR) Program to
                   stimulate technological innovation, use small businesses to meet
                   Federal research and development (R&D) needs, and increase private
                   sector commercialization of innovations derived from Federal R&D.
                   Subsequent legislation has extended the Program to September 30,
                   2008. Under the Program, Federal agencies are required to set aside
                   2.5 percent of their R&D budgets for grants to assist small businesses in
                   developing new ideas and technology. Over the past 18 years, the
                   Department of Energy (Department) has funded over $800 million for
                   the SBIR Program. The Department will fund about $87 million for the
                   program in Fiscal Year 2001.

                   The SBIR Program is a 3-phase award process. In Phase I, the
                   Department issues competitive grants up to $100,000 to small
                   businesses for exploring the technical merit or feasibility of new ideas
                   and technology. In Phase II, follow-on grants of up to $750,000 enable
                   small businesses to continue the R&D, which often culminates in a
                   prototype product or a process that can be demonstrated to potential
                   investors. Approximately two-thirds of SBIR funds awarded by the
                   Department, currently about $60 million per year, were for Phase II
                   grants. In Phase III, small businesses can further develop or
                   commercialize their innovations, but no SBIR funds can be used for
                   Phase III.

                   Accountability differs between Phase I and Phase II grants. For
                   Phase I, grantees generally do not have to account for how their funds
                   were spent. However, in Phase II, grantees are subject to tighter
                   financial accountability as grantees can be reimbursed only for their
                   actual costs incurred and costs must be in accordance with the
                   allowable cost provisions of the Federal Acquisition Regulation (FAR).
                   Also, in Phase II, some applicants propose to contribute a share of the
                   costs, and these applicants receive extra credit in the Phase II proposal
                   evaluation process.

                   The Department's SBIR Program Office is responsible for overseeing
                   the preparation of grant solicitations and selection of grantees. After
                   grantees are selected, the Department's Chicago Operations Office
                   (Chicago) and Oakland Operations Office (Oakland) are tasked with
                   negotiation, award, administration, and closeout of the grants. In
                   parallel, a Technical Program Manager from one of the Department's
                   technical programs is assigned to monitor the technical aspects of the
                   grant.


Page 1                                                         Introduction and Objective
                  The Office of Inspector General (OIG) issued a prior report and has two
                  other audits in progress regarding grant administration. In December
                  1997, the OIG issued Report DOE/IG-0415, Audit of Departmental
                  Receipt of Final Deliverables for Grant Awards. The audit determined
                  that many grantees did not provide final technical and financial reports.
                  Many of these deliverables were not received because the Department
                  did not effectively implement existing procedures or establish other
                  mechanisms to ensure that grantees fulfilled their obligations. In
                  addition, the OIG has audits in progress at Oakland and at the
                  Albuquerque Operations Office to determine whether deliverables were
                  received for science and technology grants.

                  The objective of this audit was to determine whether the Department
                  obtained assurance that costs claimed by SBIR Phase II grantees were
                  incurred and cost sharing requirements were met.

CONCLUSIONS AND   The Department did not obtain assurance that costs claimed by SBIR
OBSERVATIONS      Phase II grantees were incurred and cost sharing requirements were met.
                  Specifically, the Department did not verify through audits, desk reviews,
                  or other means that costs claimed by grantees were incurred for
                  researching and developing the specific innovations described in the
                  grants and were allowable. Likewise, the Department did not verify that
                  grantees contributed the required amounts of cost sharing. This occurred
                  because the Department did not give sufficient attention to verifying that
                  costs claimed were allowable and cost sharing requirements were met.
                  As a result, the Department reimbursed grantees for questionable costs
                  and did not detect cost sharing shortfalls. For example, three grantees
                  did not provide support for $2.4 million in claimed costs, and 10
                  grantees reported $2.4 million less cost sharing than required by grant
                  terms.

                  Management should consider the issues discussed in this audit report
                  when preparing its yearend assurance memorandum on internal controls.



                                                                 Signed
                                                       Office of Inspector General




Page 2                                                   Conclusions and Observations
PHASE II COSTS AND COST SHARING


Department Did Not   The Department did not obtain assurance that costs claimed by SBIR
Review Costs and     Phase II grantees were incurred and cost sharing requirements were
Cost Sharing         met. Specifically, Chicago and Oakland did not obtain audits or
                     perform reviews of costs and cost sharing claimed by grantees for SBIR
                     Phase II grants that were completed between October 1998 and
                     December 2000.

                     Chicago and Oakland did not verify through audits, desk reviews, or
                     other means that SBIR Phase II grantees' claimed costs had been for
                     researching and developing the specific innovative ideas and
                     technologies described in the grants and were allowable. For the
                     47 SBIR Phase II grants we reviewed, audits were not obtained and
                     desk reviews were not performed. Furthermore, Chicago and Oakland
                     did not obtain copies of available audit reports or request audits of
                     grantees where Federal agencies had routinely performed audits. For
                     27 of the 47 grants, Federal agencies had performed audits and issued
                     reports on the grantees. For example, the Defense Contract Audit
                     Agency had issued audit reports recommending final indirect cost rates
                     for several grantees. These audits could have assisted Chicago and
                     Oakland in reviewing claimed costs.

                     Chicago's policy was to make a final cost allowability determination for
                     each grant after the grantee submitted final cost data and prior to final
                     closeout. The 40 Chicago grants we reviewed had not yet been closed
                     out even though they had been completed for 8 to 34 months. For these
                     grants, we found no evidence that claimed costs had been reviewed, and
                     a cost allowability determination was made for only one of the grants.
                     For 23 of the grants, the grantees had submitted final cost data, but we
                     found no evidence that audits or desk reviews were initiated. For the
                     remaining 17 grants, Chicago had not obtained final cost data from the
                     grantees although the grant agreements required grantees to submit final
                     cost data within 90 days after grant completion.

                     In addition, Chicago and Oakland did not perform reviews to determine
                     whether grantees contributed required cost sharing. For SBIR Phase II
                     grants that contained cost sharing, grantees agreed to share a percentage
                     of costs, contribute a fixed dollar amount, or make an in-kind
                     contribution such as use of equipment or a facility. Of the 47 SBIR
                     Phase II grants reviewed, 36 required grantees to share costs. For these
                     grants, expected cost sharing totaled about $9.4 million. In some cases,
                     the grantee's agreement to share costs was a determining competitive
                     factor in the Department’s decision to award the grant. Nonetheless,
                     the Department paid grantees without determining whether grantees
                     contributed required cost sharing.

Page 3                                                                    Details of Finding
Grantees Should Be Held     The Department's Guide to Financial Assistance, dated April 1996,
Accountable                 charges contracting officers with determining allowability of costs
                            claimed by grantees and ensuring that grantees comply with all terms
                            and conditions of their grants. The guide requires a closeout process
                            to be performed after the grant is completed in order to ensure that
                            all administrative actions are accomplished. Financial
                            reconciliations and cost reviews are normally part of this closeout
                            process. The guide states that awarding offices should have a
                            consistent format and basic procedures for their closeout process and
                            grant files should contain sufficient information on which to base
                            closeout decisions.

                            Likewise, Chicago's closeout procedures covering grants, Closeout
                            of Financial Assistance Instruments, dated August 1999, require the
                            contracting officer to make a final determination concerning
                            allowability of total costs claimed by the grantee. These procedures
                            also require the contracting officer to determine whether an audit is
                            warranted and to rely on available audit reports.

                            Reviews of claimed costs and cost sharing are the basis for
                            determining that SBIR Phase II funds were paid to grantees only for
                            reimbursement of allowable costs and grantees contributed the
                            agreed-upon cost sharing. SBIR Phase II grants are subject to the
                            FAR, which provides the principles for determining allowable costs.
                            The FAR states that for a cost to be allowable, it must be adequately
                            supported by accounting records and be incurred directly for or be
                            allocable to the work being performed. In addition, the cost must be
                            reasonable and comply with grant terms, applicable cost principles,
                            laws and regulations, and generally accepted accounting principles
                            and practices appropriate to the particular circumstances.

Department Did Not          During the grant closeout process, the Department did not give
Emphasize Post-Award Cost   sufficient attention to verifying that costs claimed were allowable
Reviews                     and cost sharing requirements were met. Although Chicago had
                            established grant closeout procedures, its procedures did not address
                            cost sharing, and Chicago did not fully implement its procedures.
                            For example, for the 39 grants we reviewed that were in Chicago's
                            closeout process, Chicago had not determined the need for an audit,
                            obtained available audit reports, or, in some cases, obtained the
                            grantee's final cost data even though the grants were completed 8 to
                            34 months before our review. Moreover, Oakland's grant closeout
                            process did not include procedures for post-award reviews of
                            claimed costs and cost sharing.


Page 4                                                                        Details of Finding
                            Chicago and Oakland generally limited their cost reviews to
                            pre-award evaluations of grantees' proposed costs. These pre-award
                            reviews are an essential component of the grant award process;
                            however, attention was not given to post-award reviews of actual
                            costs and cost sharing.

                            Also, the Department did not establish performance measures under
                            the Government Performance Results Act of 1993 (GPRA) that were
                            directly related to grant administration and reviews of costs and cost
                            sharing for the SBIR Program.

Department Did Not Detect   The Department did not detect questionable costs and cost sharing
Questionable Costs and      shortfalls. Our review of grant files and interviews with grantees
Cost Sharing Shortfalls     disclosed instances when the Department reimbursed grantees for
                            questionable costs and grantees did not contribute required cost
                            sharing. For example, three grantees did not provide support for
                            claimed costs, totaling about $2.4 million. Another grantee claimed
                            general and administrative expenses (G&A) at a 53-percent rate,
                            which was significantly higher than the 8.5-percent rate used for
                            estimating G&A costs in the grant proposal. Consequently, the
                            grantee claimed $180,000 more G&A than was estimated; thus, less
                            funds were spent directly on research and development.

                            In addition, cost sharing shortfalls, totaling about $2.4 million, were
                            identified for 10 grantees which had agreed-to cost sharing. For
                            example, three grantees reported no cost sharing even though their
                            grants required cost sharing ranging from $65,000 to $288,000. The
                            other seven grantees reported less cost sharing than agreed to, could
                            not support the reported cost sharing, or claimed inappropriate items
                            as cost sharing such as a loss on a commercial contract and
                            equipment that had been paid for by another Federal agency. As a
                            result of cost sharing shortfalls, the Department paid for a larger
                            portion of cost than had been agreed to in the grants.

                            In our opinion, reviews of claimed costs and cost sharing would have
                            alerted the Department to these questionable costs and cost sharing
                            shortfalls.




Page 5                                                                          Details of Finding
RECOMMENDATIONS       We recommend that, for SBIR Phase II grants, the Managers of the
                      Chicago and Oakland Operations Offices, in coordination with the
                      SBIR Program Manager:

                             1. Resolve the cost sharing shortfalls and questionable costs
                                identified in our audit and recover costs determined to be
                                unallowable;

                             2. Implement grant closeout procedures to include
                                verification that costs claimed by grantees are allowable
                                and cost sharing requirements are met; and,

                             3. Establish performance measures, in accordance with
                                GPRA, that are relevant to post-award reviews of costs
                                and cost sharing.

MANAGEMENT REACTION   Management concurred with the finding and recommendations.
                      Chicago immediately initiated corrective actions, and Oakland plans
                      to initiate corrective actions in October 2001.

AUDITOR COMMENTS      Management's comments are responsive to the recommendations.




Page 6                                              Recommendations and Comments
Appendix

SCOPE         The audit was performed from September 2000 to May 2001 at the
              Office of the Program Manager for the Small Business Innovation
              Research (SBIR) Program, the Chicago and Oakland Operations
              Offices, and selected SBIR Phase II grantees. The audit covered 47 of
              the 190 SBIR Phase II grants completed from October 1998 through
              September 2000, valued at about $136 million. Of the 47 grants,
              40 were administered by Chicago and 7 by Oakland.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed laws and regulations relating to the SBIR Program;

                 •   Interviewed Department of Energy personnel regarding the
                     processing and administration of SBIR grants;

                 •   Interviewed representatives of selected SBIR Phase II grantees
                     regarding claimed costs and cost sharing;

                 •   Reviewed SBIR Phase II files and supporting records for
                     selected grantees; and,

                 •   Assessed performance measures relating to the SBIR Program.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits. It included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our audit
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. In
              performing this audit, we did not rely significantly on computer-
              generated data.

              An exit conference was held with the Oakland Operations Office on
              August 29, 2001. However, the Chicago Operations office waived an
              exit conference.




Page 7                                                      Scope and Methodology
                                                                             IG Report No. : DOE/IG-0521

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
